TV
—. Cocke

; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-791
ANDERSON LAW OFFICES,
BENJAMIN H. ANDERSON,
Petitioners,
Vv.
COMMON BENEFIT FEE AND COST COMMITTEE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2960 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of February, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary 4
State of Nebraska ‘+ a LM Qu.draw- we
My Commission Expires Nov 24, 2020 A .

Notary Public Affiant 39391

 

 
